                                                                             Report No. DODIG-2014-063



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              APRIL 25, 2014




                     Navy Can Improve Management of
                     Zero-Demand Items




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Navy Can Improve Management of Zero‑Demand Items



April 25, 2014

Objective                                             Recommendations
We determined whether the Navy, in                    We recommend that the Commander, Naval Supply Systems
coordination with the Defense Logistics Agency        Command, develop and implement procedures to clarify
(DLA), effectively identified and managed             requirements related to the review of zero-demand items. The
zero-demand stock.                                    procedures should include collaboration with appropriate
                                                      program offices and other stakeholders to verify the accuracy of
                                                      the weapon system data and to validate that the items support
Finding                                               valid requirements.
Naval Supply Systems Command (NAVSUP)
has reduced the number of zero-demand items           We also recommend that the Commander, Naval Supply Systems
through its disposal review process; however,         Command, in coordination with the Office of the Assistant
NAVSUP needs additional improvements to               Secretary of Defense for Logistics and Materiel Readiness,
identify and manage zero-demand items. For            develop a phased approach, with milestones, for reviewing all
the 89 zero-demand items reviewed, NAVSUP             zero-demand items.
personnel identified full or partial disposal
actions for 23 items and provided a valid
retention justification for 48 items. However,
                                                      Management Comments and
NAVSUP supply planners did not identify               Our Response
18  additional zero-demand items, valued at
                                                      Comments from the Commander, Naval Supply Systems
$26.1 million, as potential excess for disposal.
                                                      Command addressed the recommendations. The Commander,
                                                      Naval Supply Systems Command agreed to develop and implement
This occurred because NAVSUP procedures
                                                      procedures to clarify requirements related to the review of
do not require supply planners to
                                                      zero-demand items; and coordinate with the Assistant Secretary
comprehensively review zero-demand items
                                                      of Defense for Logistics and Materiel Readiness to develop a
to ensure they support valid requirements.
                                                      phased approach with milestones for reviewing zero-demand
As a result, NAVSUP is paying DLA storage
                                                      items. Please see the Recommendations Table on the back of
costs for items no longer needed. In response
                                                      this page.
to our audit, NAVSUP disposed of the
18 zero‑demand items.        This will allow
NAVSUP to put to better use $90,835 in
associated storage costs annually, and
$454,175 over a 5-year period.




Visit us on the web at www.dodig.mil


                                                                         DODIG-2014-063 (Project No. D2013-D000LD-0146.000) │ i
                   Recommendations Table
                                                              Recommendations       No Additional
                                          Management          Requiring Comment   Comments Required
                    Commander, Naval Supply Systems Command   None                1, 2




ii │ DODIG-2014-063 (Project No. D2013-D000LD-0146.000)
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                    April 25, 2014

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR LOGISTICS
			             AND MATERIEL READINESS
		             COMMANDER, NAVAL SUPPLY SYSTEMS COMMAND
		             NAVAL INSPECTOR GENERAL

SUBJECT: Navy Can Improve Management of Zero-Demand Items
	        (Report No. DODIG-2014-063)

We are providing this report for your information and use. We considered management comments
on a draft of this report when preparing the final report. Comments from Naval Supply Systems
Command conformed to the requirements of DoD Directive 7650.3; therefore, we do not require
additional comments.

Naval Supply Systems Command has reduced the number of zero-demand items through its
disposal review process. However, Naval Supply Systems Command needs additional improvements
to identify and manage zero-demand items. For the 89 zero-demand items reviewed, Naval Supply
Systems Command personnel did not identify 18 zero-demand items, valued at $26.1 million,
with no valid requirement as potential excess for disposal. As a result, Naval Supply Systems
Command is paying Defense Logistics Agency storage costs for items no longer needed.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 699-7331
(DSN 499-7331).




	                                            Carol N. Gorman
                               	             Assistant Inspector General
                               	             Readiness and Cyber Operations




                                                                                            DODIG-2014-063 │ iii
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Roles and Responsibilities_ _____________________________________________________________________1
Materiel Management Policies__________________________________________________________________2
Navy Zero-Demand Items Stored in DLA Warehouses________________________________________3
Review of Navy Zero-Demand Items___________________________________________________________3
Review of Internal Controls_____________________________________________________________________3

Finding. Improvements Needed to Identify
Zero-Demand Items No Longer Required___________________________4
NAVSUP Has Reduced Zero-Demand Items____________________________________________________4
NAVSUP Procedures Do Not Require a Comprehensive Review of
Zero-Demand Items______________________________________________________________________________6
NAVSUP is Paying Storage Costs for Items No Longer Needed_______________________________9
Recommendations, Management Comments, and Our Response____________________________9

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 11
    Use of Computer-Processed Data _______________________________________________________ 12
    Use of Technical Assistance ______________________________________________________________ 12
    Prior Coverage _ ___________________________________________________________________________ 12
Appendix B. Items Disposed of Due to Our Audit___________________________________________ 13

Management Comments
Naval Supply Systems Command_____________________________________________________________ 14

Acronyms and Abbreviations______________________________________________ 17




                                                                                                       DODIG-2014-063 │ v
                                                                                                                                   Introduction




Introduction
Objective
Our objective was to determine whether the Navy, in coordination with the
Defense Logistics Agency, is effectively identifying and managing zero-demand
stock. See Appendix A for a discussion of the audit scope and methodology related
to the audit objective.


Background
Public Law 111-84, “National Defense Authorization Act for Fiscal Year 2010,”
Section 328, “Improvement of Inventory Management Practices,” October 28, 2009,
established a formal requirement for the Secretary of Defense to submit a
comprehensive plan for improving the inventory management systems of the
Military Departments and the Defense Logistics Agency (DLA) with the objective
of reducing the acquisition and storage of secondary item inventory that is
excess to requirements.                  In response, DoD developed a Comprehensive Inventory
Management Improvement Plan (CIMIP), dated October 2010, which has an overall
objective to reduce both current inventory excesses as well as potential future
excesses. One of the sub-objectives is to eliminate inventory items with a history
of no recurring demand and a low probability of future demand, unless there is
sufficient justification to retain the items.                           Specifically, DoD is taking action to
review items that experience no demand over a period of 5 years or more.


Roles and Responsibilities
The Assistant Secretary of Defense for Logistics and Materiel Readiness (ASD[L&MR])
is responsible for developing DoD materiel management and disposition policies and
ensuring uniform implementation throughout the DoD supply chain.                                               ASD(L&MR)
published the DoD CIMIP and oversees its implementation. The Office of the Deputy
Assistant Secretary of Defense for Supply Chain Integration, within the Office of
the ASD(L&MR), chairs inventory management working groups responsible for
executing the DoD CIMIP and reviewing its progress. 

The Naval Supply Systems Command (NAVSUP) provides life cycle weapon system
support to the Navy. NAVSUP is responsible for over 400,000 class  IX repair parts,1
using funds from the Navy Working Capital Fund to buy and repair the parts and

	1	
      DoD groups materiel into 10 classes of supply. Class IX includes repair parts and components including kits, assemblies
      and subassemblies, and reparable and consumable items required for maintenance support of all equipment, excluding
      medical-specific repair parts.


                                                                                                                                DODIG-2014-063 │ 1
Introduction



                 sell them to Navy customers. NAVSUP Weapon Systems Support has offices in
                 Philadelphia and Mechanicsburg, Pennsylvania. The Philadelphia site supports
                 Naval aviation weapons systems, and the Mechanicsburg site supports ships,
                 submarines, and nuclear propulsion systems. NAVSUP is responsible for evaluating
                 excess inventory for disposal consideration and executing disposal actions as
                 needed. NAVSUP personnel participate on DoD inventory management working
                 groups and provide updates related to the implementation and progress of the
                 DoD CIMIP actions specific to the Navy.

                 Naval Sea Systems Command (NAVSEA), Naval Air Systems Command (NAVAIR),
                 and Space and Naval Warfare Systems Command (SPAWAR) are stakeholders in the
                 inventory management process.      Specifically, stakeholder program office personnel
                 collaborate with NAVSUP personnel regarding item retention and disposal decisions.

                 DLA provides integrated materiel management and logistic support for supply and
                 service items to the military. Specifically, DLA is the primary operator of the defense
                 supply and depot system and is responsible for the acquisition, receipt, storage,
                 and issue of property, including Service-owned and managed items. The DLA
                 distribution network consists of 26 distribution centers worldwide.


                 Materiel Management Policies
                 DoD Regulation 4140.1-R, “DoD Supply Chain Materiel Management Regulation,”
                 May 23, 2003, requires DoD to maintain secondary item inventory levels that
                 minimize the Department’s investment while providing the inventory needed to
                 support both peacetime and war requirements. It also requires DoD to include all
                 storage and disposal costs in materiel management decisions. Finally, the regulation
                 states that the DoD must identify and purge items from the supply system that
                 are no longer required.

                 NAVSUP Instruction 4500.13A, “Retention and Reutilization of Material Assets,”
                 October 1, 2013, outlines procedures for inventory management decisions in
                 the Navy, including semiannual disposal reviews and the review of zero-demand
                 items. Prior to its issuance, NAVSUP followed a draft version of the instruction, as
                 well as interim guidance, which included procedures for disposal reviews, but
                 not the review of zero-demand items.




2 │ DODIG-2014-063
                                                                                                                            Introduction



Navy Zero-Demand Items Stored in DLA Warehouses
In FY 2013, DoD spent approximately $15.4 million to store items that had no
demand for 5 or more years.                        As of October 2012, DLA reported approximately
500,000 unique National Stock Numbers (NSNs) with zero demand for 5 or more
years, that occupy over 3.6 million cubic feet of space at DLA Distribution locations.
The Navy owns and manages over 90,000 of those items, which occupy over
1.2 million cubic feet.               The Navy pays DLA approximately $5 million annually to
store zero-demand items.


Review of Navy Zero-Demand Items
We examined a nonstatistical sample of 89 zero-demand items managed by NAVSUP.
These items are valued at approximately $227 million and occupy over 98,800 cubic
feet of space at DLA and Navy locations. Of the 89 items, 67 have quantities stored
at DLA locations2 with an annual storage cost of approximately $426,900. The
remaining 22 items are stored at Navy locations.3


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system
of internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified an
internal control weakness in the Navy’s procedures for managing zero-demand
items. Specifically, NAVSUP procedures do not require a comprehensive review of
zero-demand items, which resulted in the Navy retaining items that were no longer
needed. We will provide a copy of this report to the senior official responsible for
internal controls in the Department of the Navy.




	2	
      These 67 items may also have quantities stored at Navy locations.
	3	
      According to NAVSUP personnel, the Navy does not separately calculate storage rates for items at Navy locations;
      therefore, a total storage cost for these items was not available.




                                                                                                                         DODIG-2014-063 │ 3
Finding




                 Finding
                 Improvements Needed to Identify Zero-Demand Items
                 No Longer Required
                 NAVSUP has reduced the number of zero-demand items through its disposal review
                 process; however, NAVSUP needs additional improvements to identify and manage
                 zero-demand items.               For the 89 zero-demand items reviewed, NAVSUP personnel
                 identified full or partial disposal actions for 23 items and provided a valid
                 retention justification for 48 items.                       However, NAVSUP supply planners did not
                 identify 18 additional zero-demand items, valued at $26.1 million, as potential excess
                 for disposal.          This occurred because NAVSUP procedures do not require supply
                 planners to comprehensively review zero-demand items to ensure they support
                 valid requirements. As a result, NAVSUP is paying DLA storage costs for items no
                 longer needed. In response to our audit, NAVSUP disposed of the 18 zero-demand
                 items. This will allow NAVSUP to put to better use $90,835 in associated storage
                 costs annually, and $454,175 over a 5-year period. In addition, disposing of these
                 items reduced storage space requirements by approximately 16,500 cubic feet.



                 NAVSUP Has Reduced Zero-Demand Items
                 NAVSUP personnel identified full or partial disposal actions for 23 items in our
                 sample, either through their semiannual disposal review process or through other
                 ongoing disposal actions.                   In addition, through collaboration with stakeholders,
                 NAVSUP personnel validated the retention of 48 items.


                 NAVSUP Disposal Review Process
                 NAVSUP Instruction 4500.13A requires NAVSUP personnel to semiannually conduct
                 a disposal review to identify Navy items with potential excess that should be
                 considered for disposal or reutilization.                        Potential excess is inventory determined
                 by NAVSUP to exceed retention limits, which are comprised of funded requirements,
                 economic retention levels,4 and contingency retention levels.5 During the semiannual
                 disposal reviews, NAVSUP uses the Navy Enterprise Resource Planning (ERP)
                 system to apply on-hand quantities to the retention limits to determine if there is


                 	4	
                     Economic retention items are assets determined to be more economical to retain than dispose of. Economic retention
                     levels are determined based on where a weapon system or item is in its life cycle.
                 	5	
                     Types of contingency retention justifications include potential foreign military sales, diminishing manufacturing sources and
                     materiel shortages, and weapon system exclusions.




4 │ DODIG-2014-063
                                                                                                    Finding



potential excess, and supply planners are required to conduct a comprehensive
review of those items.      This review includes collaborating with stakeholders to
determine if the items had any valid requirements; otherwise, the NAVSUP supply
planner can dispose of the items. In addition to the semiannual disposal reviews,
NAVSUP personnel can conduct ad hoc disposal actions when they identify items
that no longer support valid requirements.


NAVSUP Disposed of Some Zero-Demand Items
In accordance with NAVSUP Instruction 4500.13A, NAVSUP personnel conducted
the September 2012, March 2013, and August 2013 disposal reviews, which resulted in
full or partial disposal actions for over 4,000 zero-demand
items. These disposal actions will reduce storage space
requirements by about 30,000 cubic feet.        In the          NAVSUP personnel
August  2013 disposal review, NAVSUP personnel                    conducted the
                                                             September 2012, March
identified full or partial disposal actions for               2013, and August 2013
14  items in our sample. For example, NAVSUP                 disposal reviews, which
personnel disposed of 63  antennas used on radar             resulted in full or partial
                                                             disposal actions for over
systems, which had an annual storage cost of
                                                               4,000 zero‑demand
$30,500. The antennas were previously retained to                      items.
support foreign military sales (FMS) customers.

In addition, NAVSUP identified nine items in our sample for ad hoc disposal outside
of the semiannual reviews.       For example, NAVSUP personnel were disposing of
21 aircraft pods, valued at $14.5 million, during the August 2013 disposal review.
NAVSUP personnel explained that because the aircraft pods involve hazardous
materials and must be demilitarized, additional coordination is required to dispose
of the items.


Valid Retention for Zero-Demand Items
NAVSUP personnel collaborated with stakeholders and provided a valid retention
justification for 48 items. DoD Regulation 4140.1-R and NAVSUP Instruction 4500.13A
outline categories of contingency retention justifications, such as FMS reserve and
military operational necessity, and NAVSUP justified retaining 48 items based on
these contingency factors. Specifically:

         •	 NAVSUP retained 35 items due to military operational necessity and
            weapon system exclusions. For example, NAVSUP retained a speed gear
            assembly, valued at $1.2 million, due to the lack of operational ability
            for a propulsion weapon system if the item is not available.


                                                                                           DODIG-2014-063 │ 5
Finding



                         •	 NAVSUP retained six items due to potential security assistance or FMS
                            use. For example, NAVAIR program office personnel recommended that
                            NAVSUP retain four radom boom assemblies, valued at $113,725, for
                            potential FMS use on P-3 A/B aircraft models.

                         •	 NAVSUP retained four items due to procurement constraints, diminishing
                            manufacturing sources, and materiel shortages. For example, NAVSUP
                            retained a metallic tube, valued at $25,154, because there is a low vendor
                            base for the item and it is difficult to procure.

                         •	 NAVSUP retained three items due to reclamation and cannibalization.
                            For example, NAVSUP retained three sponson assemblies, valued at
                            $412,244, because NAVAIR intends to use the items for planned
                            future repairs.


                 NAVSUP Procedures Do Not Require a Comprehensive
                 Review of Zero-Demand Items
                 Although   NAVSUP’s      semiannual      disposal    review    process    identified    some
                 zero-demand items for disposal, additional improvements are needed to reduce
                 the Navy’s zero-demand inventory and minimize the Department’s investment
                 in inventories, as required by DoD Regulation 4140.1-R. Specifically, NAVSUP
                 supply planners did not identify 18 zero-demand items in our sample, valued at
                 $26.1 million, for disposal even though these items were obsolete or associated
                 with retired weapon systems. NAVSUP personnel did not identify the 18 items for
                 disposal because procedures do not require supply planners to comprehensively
                 review zero-demand items. See Appendix B for information about these 18 items.


                 Disposal Review Process Protects Many Zero-Demand Items
                 from Disposal
                 NAVSUP’s disposal review process protects many
                 zero‑demand    items    from    disposal.   Specifically,                 If
                                                                                     zero‑demand
                 NAVSUP Instruction 4500.13A provides detailed
                                                                                  items with on-hand
                 procedures for conducting semiannual disposal                   quantities fall within
                 reviews to identify potential excess based on                 or below the established
                                                                              retention limits . . . supply
                 retention limits. However, if zero-demand items
                                                                             planners are not required to
                 with on-hand quantities fall within or below the             conduct further review of
                 established retention limits, the Navy ERP system              the items and validate
                 would not identify the items as potential excess;                    their need.
                 therefore, supply planners are not required to conduct


6 │ DODIG-2014-063
                                                                                               Finding



further review of the items and validate their need. For instance, of our universe
of 104,349 zero-demand items, NAVSUP procedures protected approximately 65,000
items during the disposal reviews because on-hand quantities were within or
below economic retention limits.

In addition, NAVSUP personnel did not identify 18 items in our sample during
their August 2013 disposal review, although personnel subsequently reviewed
the items at our request and acknowledged that the items did not support valid
requirements and should be disposed of.          Specifically, 17 items were protected
during disposal reviews due to economic retention limits. The remaining item was
on a performance-based logistics contract and was therefore protected under
the “procurement constraints” category for contingency retention justifications.

For example, NAVSUP personnel did not evaluate a helical gear, valued at
$1.3 million, because the quantity of one was below the retention limit. The helical
gear had an annual storage cost of $21,349, and was used on the decommissioned
USS Enterprise (CVN-65).       As a result of our audit, NAVSUP personnel stated
that they contacted the NAVSEA program office for the weapon system, and they
recommended the item for disposal.          In another example, NAVSUP retained a
launching valve, valued at $1.5 million, because the quantity of one was below the
retention limit.   The audit team contacted NAVAIR program office personnel, who
stated that the valve was last used on the USS Lexington (AVT-16).            The Navy
decommissioned the USS Lexington in November 1991, and it is now a museum
ship for a private organization. As a result of our audit, NAVSUP personnel disposed of
the valve.


NAVSUP Instruction Does Not Provide Clear Guidance for
Validating Weapon System Application Data
In October 2013, NAVSUP updated NAVSUP Instruction 4500.13A to include
requirements specific to the review of zero-demand items, to meet the goals and
requirements of the DoD CIMIP. The updated instruction requires NAVSUP personnel
to review items with on-hand quantities that have no demand in 5 or more years,
verifying they have a weapon system application. In addition, zero-demand items
with no application will be considered for disposal.

While NAVSUP Instruction 4500.13A requires validation with the program office
for items with no identified weapon system application, it does not require NAVSUP
personnel to verify, with the appropriate program office or stakeholder, that




                                                                                      DODIG-2014-063 │ 7
Finding



                 items with an identified application still support valid requirements, and that
                 application data in the Navy ERP system is accurate. For instance, NAVSUP retained
                 a resonator receiver, valued at $438,567, which had not had demand in at least
                 10 years.    According to NAVSUP personnel, the item supported the P-3 aircraft.
                 However, NAVAIR program office personnel identified that the item supported
                 the inactive OV-10 aircraft. Therefore, NAVSUP personnel disposed of the item. In
                 another example, NAVSUP retained 901 inner tubes for aircraft tires, valued at
                 $303,790, with an annual storage cost of $13,629. According to Navy ERP system
                 data and NAVSUP personnel, the inner tubes had application on the A-4 and
                 T-2 aircraft.   At our request, NAVSUP personnel reviewed the inner tubes and
                 determined that they no longer supported a valid requirement since the A-4 and
                 T-2 aircraft are no longer used. Therefore, NAVSUP personnel took action to dispose
                 of the inner tubes.

                 In addition, NAVSUP Instruction 4500.13A does not provide clear guidance for
                 validating weapon system application data. During our audit, NAVSUP was
                 trying to determine how to use Navy ERP system data to associate individual
                 NSNs with specific weapon system applications.        NAVSUP personnel stated that
                 one method they could use to identify weapon system application is whether
                 an item appears on an allowance parts list (APL) for maritime items, or a bill of
                 material for aviation items. However, we identified, and NAVSUP personnel
                 acknowledged, potential drawbacks with this methodology, because there were
                 instances where an item was part of an APL with no users.           Specifically, using
                 APLs and data from the Navy ERP system, NAVSUP personnel identified a weapon
                 system application for 85 of our 89 sample items, including 15 of the 18 items they
                 agreed to dispose of as a result of our audit. Therefore, relying solely on application
                 data obtained from the Navy ERP system does not provide assurance that items
                 support valid requirements. For example, NAVSUP retained a power mast adapter,
                 valued at $391, with an annual storage cost of $1,176, because the quantity of
                 one was within retention limits and the item was associated with an APL.
                 According to SPAWAR program office personnel, the item is for an antenna group
                 for the AN/SSQ-108A(V) direction-finding system that the Navy retired 10 years
                 ago.   SPAWAR personnel recommended that NAVSUP retire the NSN and dispose
                 of the remaining inventory.

                 Personnel from NAVSUP and SPAWAR stated that there may be other items
                 associated with the retired AN/SSQ-108A(V) that should also be disposed of.
                 Subsequently, NAVSUP personnel identified over 200 zero-demand items associated
                 with APLs for the AN/SSQ-108A(V), but did not have any active users listed.



8 │ DODIG-2014-063
                                                                                             Finding



NAVSUP personnel stated that they will work with configuration data managers
and SPAWAR program office stakeholders to determine whether the items can be
disposed of.

Although NAVSUP updated NAVSUP Instruction 4500.13A to include a review
of zero-demand items, the instruction does not specify procedures for this review,
such as how personnel will verify weapon system application. Therefore, NAVSUP
should   develop   and   implement    procedures    for   comprehensively   reviewing
zero-demand items, to include collaboration with stakeholders to validate that
items support valid requirements. To be consistent with DoD CIMIP goals, NAVSUP
should coordinate with the Office of the ASD(L&MR) to develop a phased approach,
with milestones, for reviewing zero-demand items.


NAVSUP is Paying Storage Costs for Items No
Longer Needed
Without a comprehensive review of zero-demand items, NAVSUP risks paying
additional storage cost for items that are no longer needed.      According to DLA,
the Navy pays approximately $5 million annually to store over 90,000 zero-demand
items. We reviewed 89 zero-demand items and identified 18, with an annual storage
cost of $90,835, that did not support active weapon systems. In response to our
audit, NAVSUP disposed of these 18 items.       This will allow NAVSUP to put to
better use $454,175 over a 5-year period. In addition, disposing of the 18 items
reduced storage space requirements by approximately 16,500 cubic feet.


Recommendations, Management Comments, and
Our Response
Recommendation 1
We recommend that the Commander, Naval Supply Systems Command, develop
and implement procedures to clarify requirements related to the review
of zero-demand items.       The procedures should include collaboration with
appropriate program offices and other stakeholders to verify the accuracy
of the weapon system data and to validate that the items support
valid requirements.




                                                                                    DODIG-2014-063 │ 9
Finding



                 Naval Supply Systems Command Comments
                 The Commander, Naval Supply Systems Command agreed, stating policies and
                 procedures will be developed and implemented to clarify zero-demand review
                 requirements including procedures requiring collaboration with appropriate program
                 offices and stakeholders. Specifically, the Commander stated that as a result of the
                 Comprehensive Inventory Management Improvement Plan and audit attention,
                 the command convened a working group with Naval Supply Systems Command
                 Weapon Systems Support to review current zero-demand items and perform
                 application validations. Naval Supply Systems Command Weapon Systems Support
                 also convened continuous process improvement events for foreign military sales
                 reserve and excess defense articles that included review of zero-demand items
                 for disposal. The Commander also stated policies and procedures will be updated
                 to ensure all zero-demand items are validated and recorded or assets are disposed
                 of and items are de-cataloged.     The target completion date is October 1, 2014.


                 Our Response
                 Comments from the Commander, Naval Supply Systems Command addressed all
                 specifics of the recommendation, and no further comments are required.


                 Recommendation 2
                 We recommend that the Commander, Naval Supply Systems Command, in
                 coordination with the Office of the Assistant Secretary of Defense for Logistics
                 and Materiel Readiness, develop a phased approach, with milestones, for
                 reviewing all zero-demand items.


                 Naval Supply Systems Command Comments
                 The Commander, Naval Supply Systems Command agreed, stating that, in
                 coordination with the Assistant Secretary of Defense for Logistics and Materiel
                 Readiness, Naval Supply Systems Command will develop a phased approach with
                 milestones and prioritized steps for reviewing and taking action for items with and
                 without application.   In addition, the Commander stated Naval Supply Systems
                 Command would establish a sustainment review process for zero-demand items.
                 The target completion date for the phased approach is August 1, 2014.


                 Our Response
                 Comments from the Commander, Naval Supply Systems Command addressed all
                 specifics of the recommendation, and no further comments are required.



10 │ DODIG-2014-063
                                                                                           Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from May 2013 through March 2014 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

We used the Navy ERP system and the DLA’s Distribution Standard System (DSS)
to identify a universe of Navy-owned items with zero demand in 5 or more years,
as of October 1, 2012. The Navy ERP system data identified 104,349 zero-demand
items and the DSS data identified 92,657 zero-demand items.          Using data from
both systems, we selected a nonstatistical sample of 91 zero-demand items.         We
subsequently learned that 2 of these items did not have assets on-hand; therefore,
our sample included 89 items.

For the 89 items, we reviewed information from the Navy ERP system and
DLA DSS to obtain quantity, storage location, cubic feet occupied, storage rate, asset
cost, condition code, life cycle indicator, and demand history.     We also reviewed
information provided by NAVSUP personnel regarding weapon system application.
For each sample item, we interviewed NAVSUP Weapon Systems Support supply
planners and contacted stakeholders from NAVAIR, NAVSEA, and SPAWAR to obtain
a decision and rationale for retaining or disposing of the item.          We based our
determination of a valid retention decision on DoD and NAVSUP policy that outlines
specific categories of items that can be retained. We also reviewed information from
NAVSUP’s September 2012, March 2013, and August 2013 disposal reviews, and
matched disposal actions against the zero-demand universe data.

We interviewed personnel from NAVSUP and the Office of the Deputy Secretary of
Defense for Supply Chain Integration to obtain clarification regarding the policies and
procedures, reduction goals, and reporting requirements related to zero-demand
items. Specifically, we reviewed the following DoD and NAVSUP policies:

        •	 DoD Regulation 4140.1-R, “DoD Supply Chain Materiel Management
           Regulation,” May 23, 2003




                                                                                      DODIG-2014-063 │ 11
Appendixes



                              •	 DoD         Comprehensive             Inventory         Management             Improvement   Plan,
                                  October 2010

                              •	 NAVSUP Instruction 4500.13A, “Retention and Reutilization of Material
                                  Assets,” October 1, 2013*6

                              •	 NAVSUP Instruction 4500.13, “Retention and Reutilization of Material Assets,”
                                  January 12, 1990

                              •	 “Naval Supply Systems Command Interim Retention and Disposal Process
                                  Policy,” July 17, 2012

                              •	 “Naval Supply Systems Command Revised Interim Retention and Disposal
                                  Policy,” January 18, 2013


                 Use of Computer-Processed Data
                 We relied on data from the Navy ERP system and DLA DSS to support our audit
                 finding and conclusions.                 The Navy ERP system stores supply chain management
                 information for Navy-owned items.                         DLA DSS stores distribution information for
                 items stored at DLA locations.                     Specifically, we relied on queries of zero-demand
                 data from the Navy ERP system and DLA DSS, which included item quantity, cube
                 size, and storage cost.

                 To assess the reliability of the data, we discussed quantity information with NAVSUP
                 supply planners and DLA personnel. Based on this information, we determined that
                 the data from Navy ERP and DLA DSS were sufficiently reliable for the purposes of
                 this report.


                 Use of Technical Assistance
                 We obtained support from the DoD Office of Inspector General Quantitative Methods
                 Division in developing a nonstatistical sample for review.


                 Prior Coverage
                 No prior coverage has been conducted on the subject during the last 5 years.




                 	*	
                       We also reviewed a draft of this instruction, which NAVSUP personnel provided on June 24, 2013.




12 │ DODIG-2014-063
                                                                                                                 Appendixes




  Appendix B
  Items Disposed of Due to Our Audit
  NAVSUP identified and disposed of the 18 items listed below due to our audit.  As a result,
  NAVSUP can put $90,835 to better use annually and $454,175 over the next 5 years.

                                               Years                                                   Annual
                                                                         Total           Total
          NSN          Item Description       with No    Quantity                                      Storage
                                                                       Cubic Feet      Asset Cost
                                              Demand                                                     Cost
3010-01-224-9865     Speed Gear Assembly        10+           1        2,922.3900      $1,230,540      $16,015
3020-00-912-6980     Helical Gear Set           10+           1        3,895.8300        1,347,748      21,349
3950-00-600-1812     Power Drum Winch           10+           1        1,007.7200           27,622       5,522
5825-01-047-5147     Mast Adapter               7             1          214.5830                391     1,176
4470-01-377-7062     Main Tube Assembly         10+           1             0.0008          41,994          0A
6130-00-045-6491     Power Supply               10+           1          135.7630            2,534         744
5998-01-229-4635     Circuit Card Assembly      10+           1             0.0723               150        0A
6115-01-503-5268     Alternative Generator      7             1          720.7639        6,250,000         382
1560-01-511-0102     Aircrafts Parts Kit        5             1            28.1481       3,543,178         154
1720-01-008-0503     Launching Valve            10+           1             0.1082       1,496,038           1
5855-01-319-9757     Resonator/Receiver         10+           1             4.8750         438,567          27
1615-00-148-9202     Rotor Hub Assembly         10+           6        3,857.8860        1,454,541      21,141
2620-00-294-6632     Inner Tube                 5           901        1,792.8747          303,790     13,629B
5865-01-084-6775     Counter Transmitter        6            12          379.1904        4,513,916       2,078
5895-01-332-3931     Digital Comparator         10+           6            68.4444       4,006,997         375
5895-01-357-4219     Digital Computer           5             3            10.3887       1,305,118         38B
1560-00-075-8079     Fuselage Section           10+           1        1,410.0000          135,198       7,727
4920-00-174-8255     Holding Fixture            10+           1            87.1883           2,174         478
 TotalC                                                               16,536.1544     $26,100,497      $90,835

  A
    These NSNs occupy a small cubic area, which makes the annual storage costs round to $0.
  B
    These NSNs have items at DLA and Navy locations, but the annual storage costs only reflect
    quantities stored by DLA.
  C
    Columns do not add due to rounding.

  Source: Navy ERP system and DLA DSS data as of October 1, 2012.




                                                                                                           DODIG-2014-063 │ 13
Management Comments




                 Management Comments
                 Naval Supply Systems Command




14 │ DODIG-2014-063
                                        Management Comments



Naval Supply Systems Command (cont’d)




                                              DODIG-2014-063 │ 15
Management Comments



                  Naval Supply Systems Command (cont’d)




16 │ DODIG-2014-063
                                                                                Acronyms and Abbreviations




Acronyms and Abbreviations
       APL Allowance Parts List
ASD(L&MR) Assistant Secretary of Defense for Logistics and Materiel Readiness
     CIMIP Comprehensive Inventory Management Improvement Plan
       DLA Defense Logistics Agency
       DSS Distribution Standard System
       ERP Enterprise Resource Planning
       FMS Foreign Military Sales
    NAVAIR Naval Air Systems Command
   NAVSEA Naval Sea Systems Command
   NAVSUP Naval Supply Systems Command
       NSN National Stock Number
   SPAWAR Space and Naval Warfare Systems Command




                                                                                           DODIG-2014-063 │ 17
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
